No. 20-542
IN THE

g,upreme Qt:ourt of tbe 'mtniteb g,tateg
REPUBLICAN PARTY OF PENNSYLVANIA,

Petitioner,
V.

KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS
PENNSYLVANIA SECRETARY OF STATE, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I hereby certify that the Reply
Brief in Support of Petition for a Writ of Certiorari, in Republican Party of

Pennsylvania v. Boockvar, No. 20-542, complies with the word limitations, as it
contains 2,996 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: December 15, 2020

